1271 Avenue of the Americas |New York, NY 10020
blankrome.com

Phone:

(212) 885-5148

Fax:

(917) 591-7897

Email:

dskakel@blankrome.com

September 17, 2020
BY ECF
Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Lebamoff Enterprises Inc., et al. v. Gretchen Whitmer, et al.,
United States Supreme Court No. 20-47

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent Michigan Beer & Wine Wholesalers
Association respectfully requests that the time in which to file its response to the petition for a
writ of certiorari in the above-referenced case be extended 30 days – i.e., from the current due
date of October 9, 2020 to and including November 9, 2020.
Respondent seeks this extension because of the scheduling issues arising from preexisting
court-ordered due dates in other cases, which issues have been exacerbated by the challenges and
obstacles created by the ongoing pandemic.
We thank the Court for its consideration of our extension request.
Very truly yours,

Deborah A. Skakel
Enclosure (Proof of Service)
cc:

James Alexander Tanford (via email)
Fadwa A. Hammoud (via email)

Blank Rome LLP | blankrome.com
156695.00601/123835700v.1

